DOE/IG-0432




         AUDIT
        REPORT

                                             THE
                                 U.S. DEPARTMENT OF ENERGY'S
                                   EFFORTS TO INCREASE THE
                                FINANCIAL RESPONSIBILITY OF ITS
                                 MAJOR FOR-PROFIT OPERATING
                                         CONTRACTORS




                                             NOVEMBER 1998




   U.S. DEPARTMENT OF ENERGY
  OFFICE OF INSPECTOR GENERAL
    OFFICE OF AUDIT SERVICES
                                          DEPARTMENT OF ENERGY
                                                 Washington, DC 20585


                                                 November 20, 1998



MEMORANDUM FOR THE SECRETARY

FROM:                 Gregory H. Friedman
                      Inspector General

SUBJECT:              INFORMATION: Audit Report on "The U.S. Department of Energy's Efforts to
                      Increase The Financial Responsibility Of Its Major For-Profit Operating Contractors"

BACKGROUND

In 1994, the Departmental contract reform team recommended that the Department's major for-profit
operating contractors assume greater financial responsibility. In response, the Department developed model
contract provisions to increase contractor financial responsibility and accountability. The objective of the
audit was to determine if the Government is protected from liabilities such as fines, penalties, third-party
claims, and damage to or loss of Government property incurred by contractors who manage and operate
Department facilities and sites.

RESULTS OF AUDIT

The Government was not adequately protected against contractor created liabilities on 16 of its 20 major for-
profit operating contracts awarded by the Department of Energy. This occurred because (1) the Department
had not incorporated contract reform liability provisions into many of its major operating contracts and
(2) Departmental officials had not recognized the implications of adding contract reform liability provisions
without obtaining a performance guarantee with indemnification provisions from parent companies of its major
operating contractors. As a result, the Department may be liable for any monetary awards resulting from
liabilities such as fines, penalties, third-party claims, and damage to or loss of Government property. We
recommend that the Director for Procurement and Assistance Management negotiate changes in major for-
profit operating contracts to include contract reform liability provisions and ensure that performance
guarantees with indemnification provisions are executed with subsidiary contractors' parent or corporate
business entities. We also recommend that the Deputy Assistant Secretary issue regulatory rulemaking that
requires indemnification provisions be included in performance guarantees signed by the parent or corporate
business entity of subsidiary contractors.

MANAGEMENT REACTION

Management generally concurred with the finding and recommendations. The Office of Procurement and
Assistance Policy indicated in its response that the mechanisms necessary to effect the new requirements were
in place; however, the implementation is not complete.

cc: Acting Deputy Secretary
    Under Secretary
The U.S. Department of Energy's Efforts To Increase The Financial
Responsibility Of Its Major For-Profit Operating Contractors




TABLE OF
CONTENTS



                   Overview

                   Efforts To Increase Major Operating Contractors'
                   Financial Responsibility .......................................................................1


                   Protecting The Government's Interest

                   Details Of Finding ..............................................................................4

                   Recommendations And Comments ....................................................11


                   Appendices

                   1. Scope And Methodology.............................................................12

                   2. Provisions By Individual Contractor ............................................14

                   3. Acquisition Letter 98-05 .............................................................15

                   4. Prior Reports ..............................................................................21
Overview

INTRODUCTION AND   Historically, the Department reimbursed its management and operating
OBJECTIVE          contractors for virtually all costs incurred in the performance of their
                   contracts including fines and penalties, third-party claims, and
                   Government property damage or loss. The only contractor costs not
                   reimbursed by the Department were those resulting from willful
                   misconduct or lack of good faith by the contractor's top level
                   management, costs found to be unreasonable, and unallowable costs as
                   specified in the contract.

                   The first significant Departmental attempt to revise this practice
                   occurred in July 1991 with the issuance of the Accountability Rule. This
                   rule made for-profit management and operating contractors liable for
                   "avoidable costs" attributed to the negligence of contractor or
                   subcontractor employees. The Accountability Rule also placed the
                   burden of proof of the unallowability of certain costs on the
                   Government. Under the Accountability Rule, the contracting officer
                   was required to make a determination as to whether certain costs could
                   be considered avoidable before they could be classified as unallowable.
                   However, the Office of Inspector General, in its report DOE/IG-0339,
                   Audit of Implementation of the Accountability Rule, dated January
                   1994, concluded that on five contracts, the Department increased
                   contractor fees by $22.8 million and spent $2.5 million in administrative
                   costs without any appreciable improvements in contractor performance.

                   In June 1993, the Secretary of Energy formed a contract reform team
                   "to evaluate the contracting practices of the Department of Energy and
                   to formulate specific proposals for improving those practices." The
                   results of its review were published in February 1994. The reform team,
                   as a part of its review of the Department's financial accountability
                   systems, reached the same conclusion as the Office of Inspector General
                   and found that the Accountability Rule had little measurable impact on
                   contractor accountability and performance.

                   The contract reform team report called for changes in DOE contracting
                   practices. Recommendations relating to contractor liability and
                   accountability included (1) amending the Department's Acquisition
                   Regulations to eliminate its avoidable-cost provisions under the
                   Accountability Rule; (2) developing substantive standards similar to
                   those in the Federal Acquisition Regulation; and (3) establishing a
                   rebuttable presumption of unallowability for fines and penalties, third-
                   party liability, and Government property damage or loss. (These types
                   of costs would be classified as unallowable unless the contractor could


Page 1                                             Efforts To Increase Major Operating
                                                   Contractors' Financial Responsibility
                  prove otherwise.) The recommendations provided the basis for the
                  Department's Final Rulemaking, which was published on June 27, 1997.
                  The Final Rulemaking called for the removal of the liability ceiling for the
                  Department's for-profit operating contractors. Previously, under the
                  Accountability Rule liability for these contractors was capped at the
                  amount of fee earned under the contract in any given period. The
                  Department recognized that the consequence of increasing the
                  contractor's perceived risk would be a general increase in fees to
                  compensate contractors.

                  The objective of the audit was to determine if the Government is
                  protected from liabilities such as fines, penalties, third-party claims, and
                  damage to or loss of Government property incurred by contractors that
                  manage and operate Department facilities and sites.


CONCLUSIONS AND   The Department has not been fully successful in protecting the
OBSERVATIONS      Government from liabilities. At the time of our audit, the Department
                  had not taken the necessary steps to fully protect Government interests in
                  16 of 20 major for-profit operating contracts. In many cases, liability
                  provisions had not been added to the contracts. In other cases, the
                  Department had not incorporated indemnification provisions in
                  performance guarantees that protected the Government against liabilities
                  caused by independent subsidiaries that were created exclusively to
                  manage and operate DOE's major facilities. However, the Department
                  has increased fees, in part, to compensate its major contractors for
                  assuming this perceived risk.

                  To protect the Government's interests, the Department needs to negotiate
                  changes in its major for-profit operating contracts that do not contain
                  contract reform liability provisions and negotiate indemnification
                  provisions with parent or corporate entities of its subsidiary contractors.
                  These amendments should incorporate the liability provisions
                  recommended by the contract reform team and the recently issued model
                  performance guarantee, which included indemnification provisions
                  proposed by the Department. In addition, the Department should issue a
                  regulatory rulemaking that requires indemnification provisions be
                  included in performance guarantees signed by the parent or corporate
                  business entity of subsidiary contractors.




Page 2                                              Efforts To Increase Major Operating
                                                    Contractors' Financial Responsibility
         In our opinion, the matters discussed in this report should be considered
         by management when preparing its yearend assurance memorandum on
         internal controls.




                                               _________/S/__________
                                               Office of Inspector General




Page 3                                   Efforts To Increase Major Operating
                                         Contractors' Financial Responsibility
Protecting The Government's Interest

Government Not Protected      The Government was not adequately protected from contractor created
From Contractor Liabilities   liabilities in 16 of its 20 major for-profit operating contracts awarded by
                              the Department of Energy. These provisions were designed to hold the
                              contractor accountable for fines, penalties, third-party claims, and
                              Government property damage or loss. The provisions also removed
                              contractor liability ceilings. In addition, the Department did not have
                              indemnification provisions as part of a performance guarantee to protect
                              the Government against liabilities created by the subsidiary companies
                              that manage and operate its major facilities. Table 1 identifies the
                              number of contracts where liability and/or indemnification provisions
                              were missing as of April 1998.

                                                                   TABLE 1

                                    Missing Provisions                              Number of Contracts

                                    Liability                                                 7
                                    Indemnification                                           6
                                    Liability and Indemnification                             3

                                        TOTAL                                                16

                              Appendix 2 provides a detailed list of contracts in which essential
                              provisions covering liability and indemnification had not been
                              incorporated.

                              While the Government was not protected against contractor created
                              liabilities, the Department significantly increased the fees for 9 of these
                              contractors. For Fiscal Years 1994 through 1997, the overall fees
                                                              1
                              earned by the 16 contractors increased from $167 million to $204
                              million, or 23 percent. During this same period, the contractors' overall
                              obligational authority (i.e., the annual Departmental budget authority for
                              which the contractor is responsible) decreased by over 10 percent. In
                              short, an inverse relationship existed in which there was an increase in
                              earned fees while actual expenditures at the respective Departmental
                              sites decreased. In response to the draft report, the Office of
                              Procurement and Assistance Policy indicated that increased fees could
                              be due to other factors such as evolving fee policies and performance-
                              based contracting concepts.
                              __________________
                              1
                               Includes fees for 15 contractors. One contractor only earned fees in FY 1997;
                              therefore, there was no basis for determining an increase for the 3-year period.



Page 4                                                                                      Details Of Finding
         In the remaining four major for-profit operating contracts, the
         Government's interests were protected from contractor created liability.
         Unlike the contracts discussed previously, these contracts included all
         contract reform liability provisions, eliminated the ceiling on contractor
         liability, and, where necessary, included a performance guarantee with
         indemnification provisions signed by the parent company. The four
         contracts are shown below in Table 2.


                                          TABLE 2

              Contractor                                  Facility

         Westinghouse Electric Corp.              Waste Isolation Pilot Plant
         Allied Signal, Inc.                      Kansas City Plant
         Mason & Hanger Corporation               Pantex Plant
         West Valley Nuclear Services             West Valley Demonstration
                                                    Project


                            Contract Reform Liability Provisions

         The Department had not incorporated contract reform liability
         provisions and eliminated the liability ceiling in 10 of its major for-profit
         operating contracts. According to field procurement officials, four of
         these contracts continued to operate under the Accountability Rule,
         while another five operated under liability provisions where the
         Government primarily paid all allowable, allocable, and reasonable costs
         incurred by its contractors. The one remaining contract incorporated the
         contract reform liability provisions but did not eliminate the ceiling on
         contractor liability.

         Opportunities to incorporate liability provisions in the contracts existed
         prior to the June 1997 Final Rulemaking and soon after the issuance of
         the contract reform report. For example, model contract reform
         provisions that shifted financial responsibility to the contractors were
         available to the Department in 1994 and appeared in a major operating
         contract in January 1995. In addition, 6 of the 10 contracts
         incorporated other basic elements of contract reform such as
         performance-based fee or environment, safety and health provisions.

         In September 1997, the Department issued Acquisition Letter No. 97-07
         directing its field procurement personnel to incorporate the liability

Page 5                                                           Details of Finding
         provisions in all for-profit operating contracts by the next contract
         modification, but no later than September 30, 1998. Procurement policy
         officials noted that it is unusual for such a directive to call for
         application to existing contracts. Officials responsible for 9 of the 10
         contracts stated, at the time of our audit, that they were negotiating with
         contractors in an attempt to meet the Department's deadline. The one
         remaining contract had incorporated the liability provisions but
         continued to include a liability cap.

         The following examples represent contracts that were modified after the
         initiation of the contract reform effort but still did not include all liability
         provisions:

         • The Fernald Environmental Management Project Contract effective
           September 1, 1992, was modified July 13, 1994, to include the
           contract reform provisions for performance-based fee contracting
           but did not include the financial accountability provisions for fines,
           penalties, third-party liability and damage to or loss of Government
           property. This contract also continued the practice of capping
           liability at the amount of fee earned under the contract for a given
           fee period.

         • In the Department's contract to operate the Strategic Petroleum
           Reserve in New Orleans, the project office required the contractor to
           purchase a $10 million liability insurance policy to protect the
           Government from any liability created by the contractor. This
           requirement was based on the concern that it would be difficult to
           hold the parent company financially liable for problems created by a
           company. The project office, while incorporating the contract
           reform liability provisions, limited the contractor's liability for third-
           party claims and damage to or loss of property under the contract to
           the amount of the insurance policy.

         In response to the draft report, the Office of Procurement and
         Assistance Policy indicated that substantial progress has been made and
         continues to be made to incorporate the liability provisions of contract
         reform. According to a procurement official, the liability provisions
         should be in all applicable for-profit contracts by the end of Fiscal Year
         1999. As of October 15, 1998, we were able to verify that the liability
         provisions had been incorporated in only two of these contracts and that
         the character of another contract had been changed leaving seven
         contracts without the liability provisions.


Page 6                                                             Details Of Finding
                                 Indemnification Provisions

         Thirteen of the major for-profit operating contractors that manage and
         operate the Department's major facilities, are subsidiary entities of major
         contractors. These subsidiaries have little or no corporate capital or
         financial resources, and they are essentially independent of the parent
         company. The Department did not negotiate indemnification provisions
         in a performance guarantee signed by the parent company of its
         subsidiary for nine of these contracts. Three of these contracts neither
         contained the indemnification nor liability provisions. The remaining six
         of these contracts contained new liability provisions but did not have an
         accompanying performance guarantee with indemnification provisions
         signed by the parent company. As a result, while potential liabilities for
         the six contractors may have increased, the financial structure of these
         subsidiary relationships provided little assurance that the companies
         would have the resources to pay a major liability claim. Further, there
         was no assurance, absent the requisite contract clauses, that the
         contractors' "corporate veil" could be pierced by the Department to hold
         the respective parent company responsible for such claims.

         In response to our draft report, the Office of Procurement and Assistance
         Policy stated that performance guarantees exist for three of the nine
         subsidiary entities. We agree that these three contracts have guarantees.
         These guarantees assure the prompt and faithful performance of each of
         the provisions and conditions of the contract. However, we concluded
         that these guarantees do not contain the indemnification provisions
         necessary to protect the Government from contractor created liabilities.

         To their credit, several field procurement activities have incorporated
         indemnification provisions into a standard performance guarantee to
         protect the Government against subsidiary liabilities. The Chief Counsel
         for the Nevada Field Office stated that the origin of the performance
         guarantee, which included indemnification provisions, dated back to the
         early to mid-1980s. A local Departmental procurement activity realized,
         during the contract negotiations for operation of the Mound Plant in
         Ohio, that having a subsidiary company with little or no assets managing
         and operating the facility may leave the Government responsible for
         potential liabilities.
         The following examples represent instances where indemnification




Page 7                                                          Details Of Finding
                         provisions had not been incorporated in a performance guarantee at the
                         time the contract was awarded:

                         • The contract to manage and operate the Savannah River site
                           negotiated on August 6, 1996, was not supported by a performance
                           guarantee. Subsequently, in early 1998, a performance guarantee was
                           signed, but it did not contain specific indemnification provisions that
                           would hold the parent corporation (CBS Corporation) responsible for
                           losses or expenses that the Government may sustain as a result of the
                           Savannah River company's activities.

                         • The contracts to manage and operate Oak Ridge National Laboratory
                           and the Y-12 and K-25 sites included performance guarantees, which
                           did not include indemnification provisions. At the Oak Ridge
                           Operations Office, an official in the Office of Chief Counsel stated
                           that there was a need for indemnification provisions to protect the
                           Government from liabilities of subsidiary contractors. The official
                           stated that the performance guarantees used in the Oak Ridge
                           contracts only represented a parent guarantee of their subsidiary
                           company's performance and did not indemnify the Government
                           against liabilities created by their subsidiary. This official further
                           stated that the Department needed to standardize its performance
                           guarantee and include indemnification provisions to protect the
                           Government's interest. The official believed that the contract reform
                           Final Rulemaking in June 1997 should have included a policy
                           statement on performance guarantees and indemnification provisions.


                         In 1994, the contract reform team recommended and the Department
                         developed model contract provisions to increase contractor financial
                         responsibility and accountability in the area of fines, penalties, third-party
Prudent Business
                         liabilities, Government property damage or loss, and removal of the
Practice Dictates That
                         liability ceiling for the Department's major for-profit operating
Government Interests     contractors. The Department believed that increased contractor financial
Be Protected             responsibility would force its contractors to focus on providing quality
                         products and services and shift the risk of loss, arising out of contractor
                         management deficiencies, to the party who could prevent the loss--the
                         contractor. In this context, prudent business practice dictates that the
                         Department protect the Government's interests by taking steps to (1)
                         incorporate these new provisions into its major contracts and (2) secure
                         indemnification provisions in a performance guarantee with the parents of
                         subsidiary companies when the subsidiary does not possess the financial
                         capability to meet potential liabilities assumed under the contract.

Page 8                                                                           Details Of Finding
                       Model contract liability provisions that shifted financial responsibility to
                       the contractors were available to the Department in 1994 and began
                       appearing in for-profit operating contracts in 1995. However, in only 4
Implementation Needs   of the 20 contracts included our review did procurement officials take all
To Be Completed        of the necessary actions to limit Government exposure to contractor
                       incurred liabilities. A procurement policy official stated that the delay in
                       requiring the incorporation of liability provisions in these contracts
                       occurred because of the time required to translate the contract reform
                       report recommendations into actual contract terms and provisions.

                       Departmental officials also had not recognized the implications of adding
                       contract reform liability provisions to the contracts without obtaining a
                       performance guarantee with indemnification provisions from parent
                       companies. The need was not recognized until mid-1997 when
                       procurement policy drafted an Acquisition Letter on performance
                       guarantees, which included model indemnification provisions. A
                       procurement policy official stated that no one recognized that the
                       inclusion of contract reform liability provisions would create the need to
                       protect the Government's interest by including a performance guarantee
                       with indemnification provisions when it contracted with subsidiary
                       contractors that lacked financial resources.

                       On May 27, 1998, the Department issued an Acquisition Letter on
                       Performance Guarantees. In our opinion, this Acquisition Letter
                       included the technical provisions needed to protect the Government's
                       interest against liabilities created by the subsidiary companies that
                       manage and operate its major facilities. See Appendix 3 for Acquisition
                       Letter 98-05, which contains a model performance guarantee with
                       indemnification provisions. The Department's Office of Procurement
                       and Assistance Policy agreed that an Acquisition Letter, followed by a
                       change in Departmental procurement regulations, was needed to protect
                       the Government's interests. Procurement policy officials estimated that
                       the Rulemaking could be finalized by April 1999. However, correcting
                       this situation will ultimately require the Department to negotiate these
                       guarantees with the parent companies of all of its major for-profit
                       operating contractors.

                       The Department faces unique challenges in attempting to implement
                       contract reform principles in contracts where the contractor is a
                       subsidiary formed solely for the purposes of performing a specific


Page 9                                                                       Details Of Finding
Potential Government      management and operating contract. Under the contract provisions
Liabilities Continue To   that implement contract reform, there is to be no limitation on the
Exist                     liability that a contractor may be subjected to where such liability is
                          "caused by contractor managerial personnel's (1) willful misconduct, (2)
                          lack of good faith, or (3) failure to exercise prudent business judgment,
                          which means failure to act in the same manner as a prudent person in
                          the conduct of competitive business."

                          As a result, a DOE contractor, specifically one that is a subsidiary of a
                          major entity, could incur a large liability that it does not have the
                          resources to sustain. In such cases, given the emphasis of the contract
                          reform effort on holding contractors accountable, the reasonable
                          expectation is that the parent entity would assume such liabilities.
                          However, in the absence of an effective form of performance guarantee
                          with indemnification provisions, the parent may not be legally liable for
                          those obligations. Though the Department may not be directly liable
                          for those obligations (unless it deemed itself liable), it may have to pay
                          third-party costs that are the contractual responsibility of the operating
                          contractors.

                          As of April 30, 1998, 230 claims valued at $332 million had been filed
                          against 11 of the 16 contractors where DOE, in our opinion, has not
                          adequately protected the Government's interests. These third-party
                          claims include whistleblower, workers' compensation, discrimination,
                          and tort cases. While it is not possible to state with certainty the final
                          dollar outcome of these lawsuits, we believe that the Department
                          should utilize contract reform provisions and indemnification provisions
                          in performance guarantees to help reduce future potential Government
                          liability and financial exposure.

                          For example, a 1996 third-party lawsuit for damages in excess of $15
                          million is pending against a DOE subsidiary contractor. The liability
                          provisions of the Department's contract with the contractor are in
                          accordance with the Accountability Rule. Under these provisions, the
                          contractor liability for third-party claims is limited to avoidable costs up
                          to the amount of fee earned during the fee period when the event
                          occurred. In this case, a judgment against the contractor at or near the
                          $15 million claim amount would be greater than the annual fee earned
                          by the contractor. If, as a result, the contractor becomes bankrupt and
                          the parent is not bound, the Department could be confronted with
                          paying some portion of the unpaid balance.




Page 10                                                                         Details Of Finding
                  We recommend that the Director for Procurement and Assistance
                  Management:

RECOMMENDATIONS   1. Negotiate changes to its major for-profit operating contracts to
                     include contract reform liability provisions and negotiate
                     indemnification provisions in a performance guarantee with the
                     parent or corporate entity of subsidiary contractors.

                  2. Issue regulatory rulemaking that requires indemnification provisions
                     be included in performance guarantees signed by the parent or
                     corporate business entity of subsidiary contractors.


                  Management generally concurred with the findings and
                  recommendations. The Office of Procurement and Assistance Policy
                  indicated that the mechanisms necessary to effect the new requirements
                  were in place; however, the implementation is not complete.
MANAGEMENT
REACTION
                  We believe management's actions are responsive to our
                  recommendations.

AUDITOR
COMMENTS




Page 11                                             Recommendations And Comments
APPENDIX 1

SCOPE         The audit fieldwork was performed from October 1997 through May
              1998 at four of the Department's contractors--Westinghouse Savannah
              River Company, West Valley Nuclear Services, Lockheed Martin Energy
              Research, and Lockheed Martin Energy Systems. In addition, fieldwork
              was performed at Departmental Headquarters and the Savannah River
              and Oak Ridge Operations Offices. We also worked with various other
              DOE sites throughout the audit to obtain contractor data in order to
              achieve the audit objective.


METHODOLOGY   To accomplish the audit objective, we:

              • Reviewed Federal and Departmental Regulations, Departmental
                Orders, contract terms, and local operating policies and procedures;

              • Reviewed fees earned and other incentives to determine if fees
                increased for subsidiary company contractors;

              • Held discussions and collected data from appropriate contractor
                officials to determine if the subsidiary contractors have assets or
                insurance protecting them against potential liabilities;

              • Interviewed appropriate Department and contractor officials to
                determine if subsidiary company contractors' risk and liability
                increased since contract reform;

              • Determined through discussions and documentation if the contract
                reform provisions relating to fines, penalties, third-party liability, and
                damage to or loss of Government property have been incorporated
                into each of the Department's for-profit operating contracts; and

              • Held discussions with General Counsel at Headquarters and selected
                operations offices to determine if the Government is protected from
                liabilities as a result of indemnification provisions in the performance
                guarantees and if the Department considered issuing policy or
                procedures related to indemnification of the Government.

              The audit was performed in accordance with generally accepted
              Government auditing standards for performance audits and included tests
              of internal controls and compliance with laws and regulations to the
              extent necessary to satisfy the audit objective. Because our review was
              limited, it would not necessarily have disclosed all internal control


Page 12                                                       Scope And Methodology
          deficiencies that may have existed at the time of our audit. We did not
          conduct a reliability assessment of computer-processed data because
          only a very limited amount of such data was used during the audit.
          Management waived an exit conference on this audit effort.




Page 13                                                Scope And Methodology
      APPENDIX 2

                              STANDARD LIABILITY AND INDEMNIFICATION PROVISIONS
                                          BY INDIVIDUAL CONTRACTOR
                                                  AS OF APRIL 1988
                                          (check indicates missing provisions)


                                             FY97
                                             Obligational                                              Liability and
                                             Authority                  Liability    Indemnification   Indemnification
                                          1
        For-Profit Operating Contractors     (in millions)              Provisions   Provisions        Provisions        Total
1       Westinghouse Savannah River Co.     $1,465.7                                 ü                                   ü
2       Sandia Corporation                   1,318.4                    ü                                                ü
3       Fluor Daniel Hanford Company         1,142.5                                 ü                                   ü
4       Lockheed Martin Energy Systems       927.5                                   ü                                   ü
5       Lockheed Idaho Tech. Co. - INEL      531.3                      ü                                                ü
6       Lockheed Martin Energy Research      499.7                                   ü                                   ü
7       AlliedSignal, Inc.                   341.1
8       Mason & Hanger Corporation           303.7
9       TRW Environmental Safety Sys.        286.8                                   ü                                   ü
10      Westinghouse Electric Corp. – BAPL 276.3                        ü                                                ü
11      KAPL, Inc.                           269.2                                                     ü                 ü
12      Fluor Daniel Fernald                 254.4                                                     ü                 ü
13      Bechtel Nevada Corporation           241.2                                   ü                                   ü
14      DynMcDermott Petroleum Ops. Co.      198.1                                                     ü                 ü
15      West Valley Nuclear Services         111.7
16      Westinghouse Electric Corp. – WIPP   93.3
17      Wackenhut-Savannah River             50.5                       ü                                                ü
18      Lockheed Idaho Tech. Co. – SMC       33.3                       ü                                                ü
19      Boeing North America                 18.8                       ü                                                ü
20      Wackenhut - Nev. Test Site & L.V.    15.6                       ü                                                ü

        TOTALS                                                          7            6                 3                 16

______________________________
1
    Four for-profit operating contractors were not included in this analysis.

• Kaiser-Hill Company has a Contractor Controlled Insurance Program (CCIP) that appears to protect the Government against
   contractor created liabilities.
• Bechtel Petroleum Operations Contract was terminated in February 1998 because of the sale of the Naval Petroleum Reserve in
  California to Occidental Petroleum.
• BDM-Oklahoma contract will be privatized in November 1998.
• Fluor Daniel Services Contract was terminated in March 1998 and converted into a support service contract.




      Page 14                                                                            Provisions By Individual Contractor
APPENDIX 3

         Department of Energy                                                   No. 98-05R
         Acquisition Regulation                                                 Date 05/27/98


                      ACQUISITION LETTER
                                                  AUTHORITY

This Acquisition Letter is issued by the Procurement Executive pursuant to a delegation from the Secretary
and under the authority of the Federal Acquisition Regulation (FAR), Section 1.301(a)(2).
*******************************************************************************
                                                CONTENTS
               CITATION                                                    TITLE

       FAR Subpart 9.104, 9.105                                 Determinations and documentation
       DEAR Subpart 970.09                                      Management controls

       Subject: Guarantee of Performance

I.     Purpose. The purpose of this Acquisition Letter (AL) is to provide contracting officers with guidance
       in making a determination of responsibility on the assets of another corporate entity where the
       prospective contractor is newly organized or otherwise lacks financial resources.

       This revision of AL 98-05 corrects typographical errors contained in the model Performance Guarantee
       Agreement distributed as part of that AL. The corrections have been made in bold type in the model
       attached to this revision. The date of issuance has not been changed.

II.    Background. The Department of Energy contracts with entities that have been created by an already
       existing corporate entity or entities solely for the purpose of performing a specific contract. This
       occurs with the award of most management and operating contracts. This situation can occur in the
       award of contracts that are not management and operating contracts where the prospective awardee is
       created for performance of the instant contract, for example, where a joint venture or similar legally
       binding corporate partnership is created in other types of contracts. The Government's interests must
       be protected if the financial and other resources of a potential awardee necessary to establish financial
       responsibility are owned or controlled by a parent corporate entity or other entity.

III.   Guidance. Prior to award of any contract, the contracting officer must make a responsibility
       determination, including consideration of whether the new entity will have sufficient financial and other
       resources available to it to carry out performance of the prospective contract, including any liabilities it
       could incur to the Department under the terms of the contract.




Page 15                                                                                Acquisition Letter 98-05
AL 98-05 (05/27/98)

     If the prospective contractor has been created solely to perform a DOE contract, it will likely have little
     or no financial resources available. In order to consider the financial or other resources of the parent
     corporate entity(ies) or other guarantors, each of those entities should be specifically bound by a
     performance guarantee. A performance guarantee will contractually bind the guarantor(s) to fulfill all
     obligations of the newly created corporate entity if necessary to the successful completion of
     performance of the contract. Of course, the parent corporate entity or other guarantor itself must be
     found to have sufficient resources in order to satisfy its guarantee.

     Attachment 1 is a model solicitation provision intended for inclusion in solicitations of management and
     operating contracts in which the Department of Energy has required that the performing entity be a
     corporation organized for and dedicated to the performance of that management and operating
     contract.

     Attachment 2 is a model performance guarantee agreement. Each performance guarantee agreement
     should be drafted to assure that it is enforceable in the forum where an enforcement action would be
     brought should the subsidiary corporate entity fail to perform, and should the parent refuse to fulfill its
     guarantee. The performance guarantee agreement should then be included as an appendix to the
     contract.

IV. Effective Date. This Acquisition Letter is effective on the date of issuance.

V.   Expiration Date. This Acquisition Letter will remain in effect until rescinded or superseded. A
     rulemaking is being initiated to include the essence of this Acquisition Letter into the DEAR.




Page 16                                                                              Acquisition Letter 98-05
                                                        Attachment 1
                                                        Acquisition Letter 98-05 (05/27/98)


                                         Model Solicitation Provision

AL 98-05 Guarantee of Performance.

The successful proposer is required by other provisions of this solicitation to organize a dedicated corporate
entity to carry out the work under the contract to be awarded as a result of this solicitation. The successful
proposer will be required, as part of the determination of responsibility of the newly organized, dedicated
corporate entity and as a condition of the award of the contract to that entity, to execute a guarantee of that
entity's performance. That guarantee of performance must be satisfactory in all respects to the Department
of Energy.




Page 17                                                                             Acquisition Letter 98-05
                                                               Attachment 2
                                                              Acquisition Letter 98-05 ( 05/27/98)

                               PERFORMANCE GUARANTEE AGREEMENT

      For value received, and in consideration of, and in order to induce the United States (the Government),
to enter into Contract DE-____ __________ for the ______________________ (Contract dated, ________
by and between the Government and _______________ (Contractor), the undersigned, _________
_______________ (Guarantor), a corporation incorporated in the State of ___________ with its principal
place of business at ____________________________ hereby unconditionally guarantees to the
Government (a) the full and prompt payment and performance of all obligations, accrued and executory,
which Contractor presently or hereafter may have to the Government under the Contract, and (b) the full and
prompt payment and performance by Contractor of all other obligations and liabilities of Contractor to the
Government, fixed or contingent, due or to become due, direct or indirect, now existing or hereafter and
howsoever arising or incurred under the Contract, and Guarantor further agrees to indemnify the
Government against any losses the Government may sustain and expenses it may incur as a result of the
enforcement or attempted enforcement by the Government of any of its rights and remedies under the
Contract, in the event of a default by Contractor thereunder, and/or as a result of the enforcement or
attempted enforcement by the Government of any of its rights against Guarantor hereunder.

      Guarantor has read and consents to the signing of the Contract. Guarantor further agrees that
Contractor shall have the full right, without any notice to or consent from Guarantor, to make any and all
modifications or amendments to the Contract without affecting, impairing, or discharging, in whole or in
part, the liability of Guarantor hereunder.

      Guarantor hereby expressly waives all defenses which might constitute a legal or equitable discharge of
a surety or guarantor, and agrees that this Performance Guarantee Agreement shall be valid and
unconditionally binding upon Guarantor regardless of (i) the reorganization, merger, or consolidation of
Contractor into or with another entity, corporate or otherwise, or the liquidation or dissolution of
Contractor, or the sale or other disposition of all or substantially all of the capital stock, business or assets of
Contractor to any other person or party, or (ii) the institution of any bankruptcy, reorganization, insolvency,
debt agreement, or receivership proceedings by or against Contractor, or adjudication of Contractor as a
bankrupt, or (iii) the assertion by the Government against Contractor of any of the Government's rights and
remedies provided for under the Contract, including any modifications or amendments thereto, or under any
other document(s) or instrument(s) executed by Contractor, or existing in the Government's favor in law,
equity, or bankruptcy.

      Guarantor further agrees that its liability under this Performance Guarantee Agreement shall be
continuing, absolute, primary, and direct, and that the Government shall not be required to pursue any right
or remedy it may have against Contractor or other Guarantors under the Contract, or any modifications or
amendments thereto, or any other document(s) or instrument(s) executed by Contractor, or otherwise.
Guarantor affirms that the Government shall not be required to first commence any action or obtain any


Page 18                                                                                 Acquisition Letter 98-05
judgment against Contractor before enforcing this Performance Guarantee Agreement against
Guarantor, and that Guarantor will, upon demand, pay the Government any amount, the payment of
which is guaranteed hereunder and the payment of which by Contractor is in default under the Contract or
under any other document(s) or instrument(s) executed by Contractor as aforesaid, and that Guarantor will,
upon demand, perform all other obligations of Contractor, the performance of which by Contractor is
guaranteed hereunder.

      Guarantor agrees to assure that it shall cause this Performance Guarantee Agreement to be
unconditionally binding upon any successor(s) to its interests regardless of (i) the reorganization, merger, or
consolidation of Guarantor into or with another entity, corporate or otherwise, or the liquidation or
dissolution of Guarantor, or the sale or other disposition of all or substantially all of the capital stock,
business, or assets of Guarantor to any other person or party, or (ii) the institution of any bankruptcy,
reorganization, insolvency, debt agreement, or receivership proceedings by or against Guarantor, or
adjudication of Guarantor as a bankrupt.

       Guarantor further warrants and represents to the Government that the execution and delivery of this
Performance Guarantee Agreement is not in contravention of Guarantor's Articles of Organization, Charter,
by-laws, and applicable law; that the execution and delivery of this Performance Guarantee Agreement, and
the performance thereof, has been duly authorized by the Guarantor's Board of Directors, Trustees, or any
other management board which is required to participate in such decisions; and that the execution, delivery,
and performance of this Performance Guarantee Agreement will not result in a breach of, or constitute a
default under, any loan agreement, indenture, or contract to which Guarantor is a party or by or under which
it is bound.

     No express or implied provision, warranty, representation or term of this Performance Guarantee
Agreement is intended, or is to be construed, to confer upon any third person(s) any rights or remedies
whatsoever, except as expressly provided in this Performance Guarantee Agreement.

      In witness thereof, Guarantor has caused this Performance Guarantee Agreement to be executed by its
duly authorized officer, and its corporate seal to be affixed hereto on ________________




Page 19                                                                             Acquisition Letter 98-05
                NAME OF CORPORATION



                                      NAME AND POSITION OF OFFICIAL
                                      EXECUTING PERFORMANCE
                                      GUARANTEE AGREEMENT ON BEHALF OF
                                      GUARANTOR


ATTESTATION INCLUDING APPLICATION
OF SEAL BY AN OFFICIAL OF
GUARANTOR AUTHORIZED TO AFFIX
CORPORATE SEAL




Page 20                                                 Acquisition Letter 98-05
APPENDIX 4
Audit of Department of Energy Management and Operating Contractor Available Fees
DOE/IG-0390, May 8, 1996

The Department, during Fiscal Year 1996, proposed changes to its Acquisition Regulation that could have
increased available management and operating contractor fees by as much as $218 million per year without
demonstrating (1) a commensurate increase in risk assumed by the contractors or (2) other quantitative or
qualitative benefits that render the proposal in the best interest of the Government. The revisions to the
Acquisition Regulation were proposed without performing a cost-benefit analysis. Without such an analysis,
the Department could not ensure that the revisions to the Acquisition Regulation are cost effective and that
they achieve the long-term contract reform goals of the Department.


Audit of Implementation of the Accountability Rule
DOE/IG-0339, January 21, 1994

The Department had no conclusive evidence that the Accountability Rule was achieving its objectives.
Although the Department had increased fees paid to the contractors by $22.8 million for five contracts and
had funded $2.5 million in annual expenses to administer the Accountability Rule for six contracts, it had not
received any measurable benefits in return for this investment. No significant improvements were evident in
contractor performance, and the extent of changes in contractor liability was minimal. Also, unresolved
factors that impeded the accomplishment of program objectives were (1) shortcomings in implementing
guidance and direction, (2) lack of baseline or benchmark data, (3) the use of contract provisions that had not
significantly increased or altered the contractors' liabilities, (4) a fee structure that did not maximize the
incentives for contractors to improve performance, (5) negotiation of contract deviations that significantly
reduced the liability of a management and operating contractor, and (6) failure of the Department to augment
the staff of its operations offices.


Contract Reform Is Progressing, but Full Implementation Will Take Years
General Accounting Office, GAO/RCED-97-18, December 10, 1996

DOE has completed action on 47 of the 48 contract reform recommendations, but 9 of the completed actions
did not meet the requirements of the contract reform team. DOE explained that while actions may not have
strictly adhered to the requirements of the reform team, nevertheless, the actions achieved their intended goals.
DOE also missed its deadlines for completing the required new policies, guidance, and plans that serve as the
framework for contract reform by an average of 11 months. The missed deadlines have added to the time
needed to implement contract reform.




Page 21                                                                                         Prior Reports
Challenges to Implementing Contract Reform
General Accounting Office, GAO/RCED-94-150, March 21, 1994

• As DOE moves forward with its contracting changes, a number of issues confront management as it
  develops an implementing strategy:

• DOE staff should be prepared to implement the Team's initiatives with stronger contract administration
  and oversight skills, supported by reliable management and financial information systems. Weaknesses in
  these areas have long plagued DOE's contracting activities and have hampered past contracting reform
  efforts.
• The recommendation to hold nonprofit contractors to the same level of accountability as profit-making
  firms highlights the importance of having a skilled workforce and strong systems to properly administer
  new contracting rules.
• DOE's desire to grant contractors greater freedom to change the skill mix of their workforces to meet new
  mission requirements underscores the importance of DOE's having an overall plan for restructuring the
  entire contractor workforce.
• The recommendations to negotiate performance-based contracts places a high premium on developing fee
  and profit policies that are consistent with results-oriented performance measures.
• Requiring audited financial statements from DOE's contractors (under review by the Chief Financial
  Officer) could lessen the need for the Team's other recommendations on voucher accounting and contract
  audits.
• Finally, a key to achieving contracting change will be establishing a strong institutional entity with the
  oversight responsibility for holding DOE managers accountable for implementing the reform team's
  recommendations.




Page 22                                                                                     Prior Reports
                                                                    IG Report No. DOE/IG-0432

                              CUSTOMER RESPONSE FORM


The Office of Inspector General has a continuing interest in improving the usefulness of its
products. We wish to make our reports as responsive as possible to our customers'
requirements, and, therefore, ask that you consider sharing your thoughts with us. On the back
of this form, you may suggest improvements to enhance the effectiveness of future reports.
Please include answers to the following questions if they are applicable to you:

1. What additional background information about the selection, scheduling, scope, or
   procedures of the audit would have been helpful to the reader in understanding this report?

2. What additional information related to findings and recommendations could have been
   included in this report to assist management in implementing corrective actions?

3. What format, stylistic, or organizational changes might have made this report's overall
   message more clear to the reader?

4. What additional actions could the Office of Inspector General have taken on the issues
   discussed in this report which would have been helpful?

Please include your name and telephone number so that we may contact you should we have any
questions about your comments.

Name _____________________________             Date __________________________

Telephone _________________________            Organization ____________________

When you have completed this form, you may telefax it to the Office of Inspector General at
(202) 586-0948, or you may mail it to:

                               Office of Inspector General (IG-1)
                                     Department of Energy
                                    Washington, DC 20585

                                  ATTN: Customer Relations

If you wish to discuss this report or your comments with a staff member of the Office of
Inspector General, please contact Wilma Slaughter at (202) 586-1924.
The Office of Inspector General wants to make the distribution of its reports as customer
     friendly and cost effective as possible. Therefore, this report will be available
         electronically through the Internet at the following alternative address:


       Department of Energy Human Resources and Administration Home Page
                            http://www.hr.doe.gov/ig

           Your comments would be appreciated and can be provided on the
                  Customer Response Form attached to the report.

                          This report can be obtained from the
                              U.S. Department of Energy
                     Office of Scientific and Technical Information
                                      P.O. Box 62
                             Oak Ridge, Tennessee 37831
